                                 AUDIT




 MINERALS MANAGEMENT SERVICE:
 ROYALTY-IN-KIND PROGRAM’S OIL
 VOLUME VERIFICATION PROCESS




Report No.: C-IN-MMS-0007-2008   May 2010
              OFFICE OF
              INSPECTOR GENERAL
                               r-:        F



                                                                                  MAY 2 5 2010
Memorandum

To:

From:


Subject:       Final Audit Report: Minerals Management Service: Royalty-in-Kind Program's
               Oil Volume Verification Process (Report No. C-IN-MMS-0007-2008)

        This memorandum transmits the final report of our audit of the Royalty-in-Kind (RIK)
Program's oil volume verification process. The objective of this review was to determine if the
RIK program (l) verifies oil volumes to ensure the government is receiving its share of royalties
in kind, and (2) delivers the correct oil volume to the Department of Energy contractors for the
Strategic Petroleum Reserve.

        We identified six areas in the process requiring improvement to ensure the government is
receiving all of its in-kind royalties.

        Since the announced termination of the RIK Program in September 2009, RIK has taken
a number of measures to alleviate some of our stated concerns in this report. Our report contains
four recommendations to assist RIK in ensuring proper royalty collection during its program
phase-out. Minerals Management Service (MMS) concurred with all four of our
recommendations. Based on the response to the draft report, we consider Recommendations 1, 3,
and 4 as resolved, but not implemented. We are therefore, referring them for tracking of
implementation. We consider Recommendation 2 unresolved. We need additional information
before we can consider this recommendation resolved.

       Please provide us with your written response to this report within 30 days. The response
should provide the information required in Appendix 4. Address your response to:

              Ms. Kimberly Elmore
              Assistant Inspector General for Audits, Inspections, and Evaluations
              U.S. Department of the Interior
              Office of Inspector General
              1849 C Street, NW, MS 4428
              Washington, D.C. 20240




                               Office of Inspector General   I Washington,   DC
       The legislation, as amended, creating the Office of Inspector General requires that we
inform Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and unimplemented recommendations.

       Should you have any questions about this report, please contact me at (202) 208-5745.




                               Office of Inspector General | Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1 
Introduction ............................................................................................................. 2 
    Objective ......................................................................................................................... 2 
    Background ..................................................................................................................... 2 
Findings................................................................................................................... 4
    Incomplete and Untimely Imbalance Settlements .......................................................... 4 
    Properties with Systemic, Significant Imbalances not Addressed .................................. 6 
    Manual Calculation of Royalty Oil Owed Increases the Risk of Error........................... 7 
    Inaccurate Performance Measure Results ....................................................................... 8 
    No Verification of Volume Allocation Methods ............................................................ 9 
    Unjustified Imbalance Thresholds .................................................................................. 9 
    RIK Response to DOE Recommendations ................................................................... 10 
Recommendations ................................................................................................. 12 
Appendix 1: Scope and Methodology................................................................... 13 
    Scope............................................................................................................................. 13 
    Methodology ................................................................................................................. 13 
Appendix 2: Definitions ........................................................................................ 14 
Appendix 3: MMS Response to Draft Report....................................................... 15 
Appendix 4: Status of Recommendations ............................................................. 18 
 
 
 
Results in Brief
 
The Royalty-In-Kind Program (RIK), a part of the Minerals Management Service
(MMS), takes royalties “in-kind” whereby companies pay their royalties in oil and
gas volumes to the U.S. Government based upon their lease rate, usually 1/6 or
1/8 of the total production volume. RIK then sells those products competitively on
the open market. In FY2008, MMS reported $5 billion in sales revenue from oil
and gas, about half from oil, through RIK. A portion of the royalty oil is
transferred to the Department of Energy (DOE) to help fill the Strategic
Petroleum Reserve.

We wanted to determine if the RIK program (1) verifies oil volumes to ensure the
U.S. Government is receiving its share of royalties in-kind, and (2) delivers the
correct oil volume to DOE contractors for the Reserve.

We found several areas where RIK could improve to ensure the proper accounting
of oil royalties. In particular, we found:

    1. Imbalance settlements were both incomplete and untimely. Imbalances are
       the result of an overdelivery or underdelivery based upon the amount of
       oil the U.S. Government is supposed to receive. This difference creates
       either a negative or a positive imbalance that will need to be resolved or
       settled, where either the company owes the U.S. Government or the U.S.
       Government owes the company.

    2. Systemic, significant imbalances have not been addressed for years.

    3. The risk of error when calculating royalties and imbalances increases due
       to RIK’s manual calculation process.

    4. RIK overstated their performance measures related to property
       reconciliation.

    5. RIK does not have a method for verifying volume allocations, especially
       for those properties with mixed leases whereby a lease may have in-kind
       royalties due, cash royalties due, and/or leases with royalty relief (no
       royalty required).

    6. The thresholds used to prompt RIK to resolve the imbalance or settle with
       companies were not justified.

During our review, RIK made significant progress on several of the above items.
As a result, we made four recommendations, which if implemented, should assist
RIK in its operations and phaseout of the program.




                                                                                   1
Introduction
Objective
The audit’s objectives were to determine if MMS’ RIK Program (1) verifies oil
volumes to ensure the U.S. Government is receiving its share of royalties in-kind,
and (2) delivers the correct oil volume to DOE contractors for the Reserve.

Background
The RIK Program, originally a pilot program in 1998, was formally established in
2004. RIK takes royalties on crude oil and natural gas production in product, or
in-kind, from operators on federal leases rather than a cash payment or in-value.

                              RIK Sales Revenue by Fiscal Year
                                        (in billions)
                 $6

                             Gas          Oil
                 $5


                 $4
 Sales Revenue




                 $3


                 $2


                 $1


                 $0
                      2004         2005            2006       2007      2008
                                                Fiscal Year
 Figure 1


The royalty is usually 1/6 or 1/8 of the total volume dependent upon lease
provisions. RIK then sells that crude oil or natural gas competitively on the open
market. In FY2008, MMS reported $5 billion in sales revenue from oil and gas,
about half from oil, through the RIK Program (See figure 1 above.).

RIK is also responsible for delivering some of the royalty oil to DOE to fill the
Reserve. In 2008, $1.6 billion in royalty oil, about 16.2 million barrels, was
delivered to DOE. The Reserve has several storage sites throughout the Gulf



                                                                                     2
Region with a total capacity of 727 million barrels. As of December 2009, the
Reserve was near capacity. Figure 2 outlines the delivery process.




Figure 2

In September 2009, Secretary of the Interior Ken Salazar, announced the
termination of the RIK Program. A RIK official estimated the program phaseout
to take approximately two to three years. As RIK’s sales contracts expire, the
royalty will convert from in-kind to in-value. Deliveries to the Reserve ended as
of December 31, 2009.




                                                                                    3
Findings
This review stemmed from a DOE Office of Inspector General (OIG) report1,
identifying several issues related to the Reserve and MMS’ role in the process.
We began this audit in June 20082 to determine if RIK (1) verifies oil volumes to
ensure the government is receiving its share of royalties in-kind, and (2) delivers
the correct oil volume to DOE contractors for the Reserve. (See appendix 1 for
our scope and methodology.)

We identified six areas in RIK’s volume verification process that did not assure
that the U.S. Government is receiving all of its royalties. These include
incomplete and untimely imbalance settlements; properties with systemic,
significant imbalances not addressed; manual calculation of royalty volume
increasing risk of error; inaccurate performance measure results; no verification of
volume allocation methods; and unjustified imbalance thresholds. We also
determined the status of DOE OIG’s recommendations requiring collaboration
between DOE and MMS to verify Reserve deliveries.

Since the announced termination of the RIK Program, RIK has taken a number of
measures to alleviate some of our concerns. We identify those areas RIK has
already improved.

The reader can follow the flow of the verification process in figure 3, and can note
the location where RIK can make improvements (labeled 1 through 6). These are
also in order of importance. (For definitions of terms in figure 3, see appendix 2.)

Incomplete and Untimely Imbalance Settlements
       Lengthy delays in settling imbalances may result in millions of dollars in
    1  interest on overdelivered or underdelivered royalties. In response to a
       2007 internal review of imbalances, RIK identified 13 properties requiring
settlement with the companies. As of September 2009, none of these had been
completed. Since 2007, the number of properties requiring a settlement increased
from 13 to 41. In this same time, only two imbalance settlements were completed
and payments totaling $2.8 million were received from the companies. Less the
two settlements completed, the total net settlement amount for the remaining 39
properties was $1.3 million owed to the companies.

Some of these settlements have been accruing significant interest for years; some
as far back as April 2004. For example, a company underdelivered during a three
year period. The company owes the U.S. Government $10.9 million in royalties
and approximately $2.4 million in interest.
                                                            
1
  Office of Inspector General, Dep’t of Energy, No. DOE/IG-9786, Department of Energy’s Receipt of
Royalty Oil, (2008).
2
  We postponed work on this review from July 2008 – February 2009 to respond to a Congressional request.



                                                                                                           4
 
                               RIK Oil Volume Verification Process



     Lease #1 
                                                                                        Market 
      16.67%                        FMP 
    Royalty Rate      5                                                                 Center 


                                     Run                 Pipeline 
                                    Ticket              Statement
                                                                                                  Flow of oil 
      Lease #2 
    Royalty Relief 
                                                                                                  Process Flow 
                                     TIMS                               RIK
       OGOR                        (OEMM)


                            RIK imbalance                        RIK invoicers enter 
                           analysts calculate                    pipeline statement 
                          royalty from OGOR                     volumes to generate 
                          and run ticket data                    amount purchased 

                               3
                                               PIM calculates 
                                                monthly and                      Imbalance analysts                      Oil 
                                                 cumulative                        enter property                    Imbalance 
                                                 imbalance                       imbalances into oil                  Tracking 
                                                                                 imbalance tracking                    Sheet 
                                                                                       sheet
                                                                6
                 No further        NO            Imbalances                                                        Tracking sheet 
                   work                            exceed                                               4         used to generate 
                 performed                       thresholds?                                                        performance 
                                                                                                                  measure results 

                                                          YES                                           1 
                                                                        2
                                              Imbalance analyst                                                   Once approved, 
                                                                                 Analyst sends 
                                               performs work to                                                    memo sent to 
                                                                                  supervisor 
                                             resolve imbalance or              documentation to                  operator providing 
                                                support need to               support settlement                   notification of 
                                             settle with operator                                                    imbalance


                                                                                 Settlement                       Operator sends 
                                                                                  Tracking                       payment or report 
                                                                                Spreadsheet                       to obtain credit 

Figure 3



The problem is twofold. First, supervisory reviews have not been timely.
Typically, analysts develop the settlement methodology and support and forward
this to the imbalance supervisor for approval. Some settlements had been waiting
almost a year for approval. Of the 41 settlements, only seven (17 percent) had
been approved and a memorandum sent to the companies.


                                                                                                                                       5
Second, no follow-up process was in place with companies after sending an
imbalance notification memo. Once the supervisor reviewed the support and
approved the settlement, RIK sent a memorandum to the company notifying them
of the imbalance and the amount due the U.S. Government or owed to the
company. The company is responsible for claiming a credit by submitting the
appropriate report. The company has 30 days to respond with payment or to
dispute the imbalance. Of the seven instances where RIK sent a memo, only two
cases were closed and payments received. For the remaining five cases, the dates
of the original notification went back two years, and had yet to be settled. Further,
the memorandum was informational only. RIK took no action to follow up the
memorandum with a demand letter if the company was unresponsive.

Subsequent to the announcement of RIK’s phase-out, and to address concerns
raised during our audit, RIK took steps to improve the imbalance function. RIK
developed a strategy with additional procedures3 outlining RIK’s approach to
reconciling and resolving imbalances. The strategy defined roles and
responsibilities for the imbalance and invoicing staff to ensure appropriate
separation of duties in the imbalance resolution process. For instance, RIK
realigned the oil imbalance function under a new supervisor with crude oil
experience. The supervisor and the program manager for Asset Sales and
Accounting (formerly the deputy RIK manager) now review and approve all
settlements. The new procedures also eliminated the informational memo, when
the companies owe the U.S. Government, and replaced it with a demand letter.

These new procedures will substantially improve the imbalance resolution
process. Significant work is still ahead, however, because the RIK oil imbalance
group is reviewing all oil properties (approximately 250) included in the program
since 2004. This effort will substantially increase the workload of the imbalance
staff and will require diligence to make certain all royalties are collected. The
imbalance supervisor estimated a full closeout of all properties would take about
one year.

As of February 2010, RIK expected to complete a full reconciliation of 30
properties by April 2010. There are still 47 active properties that cannot be closed
until after the contracts terminate. The last contract terminates in September 2010.


Properties with Systemic, Significant Imbalances not
Addressed
        Throughout this review, we identified properties continuing to have
     2 
        significant imbalances. In some instances, the operator continued to
        overdeliver or underdeliver a substantial number of barrels – in some
cases thousands of barrels each month – and it continued for years before RIK
began to research the issue. Resolving these imbalances would (1) reduce the
                                                            
3
    Royalty-In-Kind, Royalty In-Kind Operator Imbalance Phase Out Strategy & Procedures, (Oct. 2009).



                                                                                                        6
need to perform a settlement, and (2) reduce the price risk associated with these
imbalances. Price risk is the monthly fluctuation in the oil price that could result
in a company cumulatively underdelivering when prices are low, and then
overdelivering when prices are higher, resulting in the U.S. Government owing
the company. For example, for one of the settlements, MMS owes the operator
$3.7 million but the operator had underdelivered 9,000 barrels. The monthly
pricing and the fluctuation in the overdeliveries and underdeliveries resulted in
this situation.

Figure 4 below provides a hypothetical, albeit simple, situation. Here, an operator
might underdeliver 7,000 barrels over several months, but MMS could owe the
company $30,000 because of the fluctuation in pricing and significant over-
deliveries and underdeliveries for those months.

             Month      Over (Under)    Monthly Price   Total Owed to Company
                          Delivery                              (MMS)
               1            3,000           $60               $180,000 
               2           (20,000)         $45               ($900,000) 
               3           10,000           $75               $750,000 
                           (7,000)                             $30,000 
  


Figure 4. Hypothetical Underdelivery

RIK recently took action to address properties having significant imbalances. In
particular, one company had nine properties with considerable imbalances over
several years. At the time of our review, the estimated value of the imbalances for
eight of the nine properties was $17.9 million owed to the company for
overdelivery of oil. Over the last few months, RIK has worked with the company
to reconcile the volumes and resolve the imbalances. As of February 2010, RIK
had resolved a majority of these imbalances and expects to have only minimal
imbalances once they have verified all of the numbers.

 Recommendation
  1.
    1. RIK should establish a tracking system for each property to ensure
       timely and proper reconciliation and resolution of imbalances.


Manual Calculation of Royalty Oil Owed Increases
the Risk of Error
          In some cases, oil imbalance analysts manually calculate the royalty owed.
     3 
          This is done when volume adjustments are needed to account for



                                                                                       7
properties with leases that have different royalty rates, royalty relief, or when the
lessee pays its royalty in-value. In one of our samples, RIK did not subtract
royalty relief volumes from the total volumes resulting in an error of volume
owed to the U.S. Government and a difference in the imbalance. While the error
was not significant, the risk still exists that RIK is not calculating volumes
correctly.

As the oil imbalance analysts reconcile the 250 properties, new procedures
recently initiated include documenting the monthly royalty and imbalance
calculations in a spreadsheet along with documentation to support the volume
figures. This should help to complete the reconciliation file. In addition, RIK
developed a checklist to be completed by each imbalance analyst to ensure all


  Recommendation
reconciliation steps are completed and supported.
     2. RIK should appropriately document royalty calculations and ensure
         procedures are in place for a verification review of these calculations,
         especially for those properties with various royalty rates, royalty
         relief, and in-value leases.




Inaccurate Performance Measure Results
       RIK did not accurately report performance measure results. There are two
 4 
       performance measures related to the timely reconciliation and resolution of
       imbalances. The first performance measure includes a percentage of
property reconciled within 180 days following the month of production. The
percentage goal for FY 2008 was 87 percent. The second performance measure
includes total reconciliation of 100 percent of RIK properties within 18 months
following the production month.

The above measures include the settlement process, if applicable. Based on our
review, RIK overstated the results because they did not accurately account for all
unreconciled properties or properties with unresolved imbalances. For example,
for one month in 2008, RIK reported that 100 percent of the 114 oil properties
were reconciled. Based on our review, we determined that 11 (or 10 percent) of
those properties were not reconciled because they were still in settlement status
with the company, could not be reconciled because not all information was
available, or had a significant imbalance that remained unresolved. We performed
the same analysis for all months in 2008 and identified similar issues for every
month.

In our draft report, we recommended RIK ensure accurate tabulation of
performance results. MMS’ response to the draft (see appendix 3) indicated that
this recommendation is not relevant because, due to the phaseout of the RIK



                                                                                        8
program, RIK will no longer be tracking these performance measures. We,
therefore, eliminated this recommendation in the final report.

No Verification of Volume Allocation Methods
        A property could have leases with different royalty rates, leases with
    5   royalty relief, or leases that are part of the in-value program. We estimate
        that approximately 24 percent of oil properties have “mixed” leases. MMS
relies on the volume reported on the Oil and Gas Operations Report (OGOR), a
company generated report, to determine how lease operators allocate volumes by
lease. We found an example where an oil company conducted an internal review
and determined they were misallocating oil between a royalty relief well and a
royalty bearing well. As a result, the company reallocated barrels from the royalty
relief well to the royalty bearing well and calculated they owed MMS $2.4 million
in royalties. RIK and the Offshore Energy and Minerals Management (OEMM)
program both stated that their processes would not have caught this allocation
error. Because no one is verifying that the companies are appropriately allocating
volumes at the lease level, this situation could be occurring elsewhere and MMS
could potentially be losing royalties.

This issue is not isolated to in-kind royalties, but applies to in-value royalties as
well. The same company noted above also had to adjust the royalty owed on its
in-value gas royalties. An official in MMS’ Audit and Compliance Management4
program stated that they would not have identified the allocation error through a
compliance review or audit. He also stated that such a review of allocation
methods, in some cases, would be very cumbersome.

   Recommendation
          3. MMS should establish a process to verify volume allocation methods
             used by companies on offshore leases.


Unjustified Imbalance Thresholds
        RIK did not justify the thresholds used to initiate imbalance resolution or
    6   settlement of the imbalance. The threshold for a monthly imbalance, by
        property, was one percent of gross production and the cumulative
threshold by property was 2,000 barrels or $100,000, using a $50 average cost per
barrel.

MMS was valuing the monthly and cumulative imbalances by a fixed $50 per
barrel instead of a more accurate price, such as the monthly index price. This was
significant especially in 2008, when the monthly average cost per barrel ranged in
price from $37 to $131.
                                                            
4
  MMS’ Audit and Compliance Management program is responsible for ensuring that the nation’s federal and
Indian in-value royalties are accurately reported and paid in compliance with laws, regulations, and lease
terms. They accomplish this through compliance reviews and audits.



                                                                                                        9
As part of its new procedures, RIK established a new cumulative threshold for its
imbalances based on an internal cost benefit analysis. The new threshold is based
on the estimated amount of time it takes RIK to reconcile and resolve any
imbalances for each property. The amount also includes the estimated time spent
to research and respond to company appeals. In addition, RIK is valuing the
imbalance based on the per barrel contract price paid by the purchaser rather than
the previous $50 per barrel. This method accurately reflects the imbalance value.
For those properties that do not exceed the threshold, the imbalance analyst and
the imbalance supervisor will certify as such and include their certifications in the
properties’ reconciliation files.

 Recommendation

       4. RIK should update its “Royalty-In-Kind Operator Imbalance Phase Out
          Strategy & Procedures” dated October 7, 2009 with additional
          process improvements, such as the threshold certification form,
          property checklist, and royalty calculation spreadsheet. This will
          ensure a comprehensive closeout strategy.



RIK Response to DOE Recommendations
In its January 2008 report regarding Reserve deliveries, DOE OIG included two
recommendations requiring collaboration between DOE and MMS:

        Verify, to the extent practicable, past royalty receipts through supporting
         documentation or reconciliation with MMS.
        Provide MMS with DOE royalty oil receipts and work collaboratively
         with MMS to reconcile actual delivery and receiving reports at the market
         centers so that each agency knows the actual amounts of oil shipped and
         delivered.

In response to the first recommendation, RIK performed, to the extent possible, a
reconciliation of all Reserve deliveries from 2002-2005 (there were no deliveries
in 2006). RIK and DOE were unable to reconcile 53,000 barrels, which accounted
for less than one percent of the total barrels delivered to the Reserve during that
period. Due to the insignificant volumes, DOE OIG considered the
recommendation closed.

In response to the second recommendation, in September 2007, RIK revamped its
Reserve reconciliation process with DOE and issued new procedures to ensure
verification and reconciliation of delivery estimates with actual deliveries. These
procedures required more communication between RIK and DOE and agreement
by both agencies on the amount of oil delivered to the Reserve’s contractors. We
reviewed the reconciliation files for one month and found support for almost all



                                                                                  10
estimates and actual deliveries. In addition, the file contained support for
resolution of a discrepancy between RIK’s figures and DOE’s figures. Overall,
we found this reconciliation process to be effective.

The issues noted in our report affect the deliveries to the Reserve contractors as
well. Imbalances occur in Reserve deliveries when the shipper delivers more or
less oil than that owed to the U.S. Government. Upon reviewing one Reserve
contract in 2008, we found that for the 6-month contract term, approximately
30,000 barrels were underdelivered to the Reserve contractors. While this appears
to be significant, RIK shippers delivered about 11.5 million barrels to the Reserve
contractors during that period. The underdelivery accounts for about 0.3 percent
of the total volume delivered.




                                                                                 11
Recommendations
Recommendations
Because of the program termination announcement, we reassessed our original
recommendations, which focused on long-term program solutions, to focus on
short-term solutions for RIK’s close out of existing sales contracts and royalty
volume verification. In the last six months, RIK has taken action on some of the
issues noted in our report. Therefore, our recommendations supplement the newly
developed procedures and processes for volume verification and imbalance
resolution.

     1. RIK should establish a tracking system for each property to ensure
        timely and proper reconciliation and resolution of imbalances.

     2. RIK should appropriately document royalty calculations and ensure
        procedures are in place for a verification review of these calculations,
        especially for those properties with various royalty rates, royalty relief,
        and in-value leases.

     3. MMS should establish a process to verify volume allocation methods
        used by companies on offshore leases.

     4. RIK should update its “Royalty-In-Kind Operator Imbalance Phase Out
        Strategy & Procedures” dated October 7, 2009 with additional process
        improvements, such as the threshold certification form, property
        checklist, and royalty calculation spreadsheet. This will ensure a
        comprehensive closeout strategy.
                               




                                                                                  12
Appendix 1: Scope and Methodology
Scope
Our scope included RIK oil transactions and volume verification processes for
unrestricted, small refiner, and Reserve sales from July 1, 2007 to February 2010.
Our audit focused on the processes and procedures of RIK’s Back Office (now
referred to as Oil Accounting and Verification), which is responsible for verifying
oil royalty volumes and reconciling Reserve deliveries with DOE.

Methodology
We conducted this audit in accordance with generally accepted government
auditing standards. We believe that the work performed provides a reasonable
basis for our conclusions and recommendations. As part of our audit, we
completed the following:

             Reviewed the DOE OIG report5 and interviewed DOE OIG staff.
             Reviewed applicable laws, regulations, and RIK policies and procedures
              including newly developed procedures for phasing out the RIK program.
             Conducted on-site work at RIK’s program office in Lakewood, Colorado
              where we interviewed MMS and RIK managers and staff, performed
              walkthroughs of RIK’s invoicing and imbalance processes, and reviewed
              Reserve reconciliation and imbalance settlement files.
             Reviewed RIK’s Reserve reconciliation files to verify that reconciliation
              efforts between MMS and DOE were supported through documentation,
              and if any discrepancies between MMS and DOE figures were explained
              and supported.
             Reviewed and analyzed RIK’s Reserve reconciliation efforts for Reserve
              deliveries between 2002 and 2005 to satisfy DOE OIG’s report
              recommendation.
             Analyzed and tested the reliability of the information in MMS’ systems by
              selecting monthly oil transactions during our scope’s timeframe.

 




                                                            
5
    Office of Inspector General, Dep’t of Energy,supra note 1



                                                                                    13
Appendix 2: Definitions
The following definitions are to guide the reader through the process flowchart
and points of deficiencies described in the report, p. 5.

Facility Measurement Point (FMP) – the volume measurement point for royalty
determination. Also, it is commonly the point of royalty-in-kind oil purchase or
transfer of oil to a Strategic Petroleum Reserve shipper (also referred to as a
property).

Imbalance – the difference between the volume owed to the U.S. Government and
the volume delivered to the RIK purchaser or shipper. This may be a positive or
negative imbalance (also referred to as an operator imbalance).

Monthly Imbalance – the difference for one month of production.
Cumulative Imbalance – a running total of monthly imbalance amounts.

Oil and Gas Operations Report (OGOR) – used by companies to report all
operations on a lease or agreement during a specific production month; includes
gross production numbers. A majority are submitted electronically.

Oil Imbalance Tracking Sheet – Excel spreadsheet used by oil imbalance analysts
to track monthly and cumulative imbalances by property.

Property Imbalance Module (PIM) – a module within RIK’s system that
calculates a property’s monthly and cumulative imbalances.

Pipeline Statement – “third party” documentation received from the purchaser
supporting the amount of oil received from the operator. The pipeline company
transporting the oil provides this document to the purchaser. The purchaser
submits the pipeline statement to RIK, which is used to create an invoice for the
purchaser.

Run Ticket – document supporting the measurement of production at the FMP.
The FMP operator submits this document to the Offshore Energy and Minerals
Management program. A run ticket is the most reliable measure for production
information used to calculate royalties.

Settlement “Cash Out” Tracking Sheet – Excel spreadsheet used by the RIK Back
Office to track open and closed imbalance settlements.

Technical Information Management System (TIMS) – a computer system
application that provides the means to collect and analyze offshore lease
information, provide data for environmental studies, and collect and analyze
information from inspections of offshore platforms and drilling rigs. Information
collected also includes OGOR and run ticket volumes.


                                                                                   14
Appendix 3: MMS Response to Draft
Report

                       Unired Srares Department of the Interior
                                  MINERALS MANAGEMENT SERVIC E
                                           W..I"" , u>", DC l02~O


                                            APR 1 5 1010

    Memorandum

    To:           Ass istant Inspector General ior Audits, Inspections and Evaluations

    Through:      Wilma A. Lewis       ~d 7Yl-- ~
                  Ass istant Secretary - Land and Mineral s Management

    From:         S .. Elizabeth Birnbaum .......-{:. ~ p~
                  DIrector               / --

    Subject:      Rcsponse to Draft Audit Report Minerals Management Service: Royally-/ll-Killd
                  Program 's Voilim e Verification Process (C-IN-MMS-0007-2008)

    Thank you for the opportunity to review and comment on the Office of Inspector General (O IG)
    draft audit report enti tled, Minerals Management Service: Royalty-In-Kind Program 's Voillme
    Verification Process (C-IN-MMS-0007-2008). We have reviewed the draft audit report and
    generally agree wi th its finding s. We concur with four of the five li sted recommendations.
    lI owever. due to the scheduled phase-out of the Royalty-in-Kind (RIK) Program. we have
    changed OUf performance reporting such that Recommendation 2 is no longer relcvam ; therefore.
    we do not concur with Recommendation 2. Attached is a summary of planned actions. target
    dates. and titles o f the officia ls responsible for implemen tation of each recommendation.

    We appreciate the OIG 's insight and recommendations to assist the Mi nerals Management
    Service (MMS) in ensuring proper and complete accounting of oil royalties during the phase-out
    of the RIK Program. If you have any questions about this response, please contact Andrea
    Nygren . MMS Audi t Liai son Officer, on (202) 208-4343 .

    Attachment




                                   TAKE PRIDE"1!:::iJ
                                    INAMERICA~




                                                                                                     15
16
                                                                                                    2


as well as support for mixed royalty rates, allocation percentages, and assurance that ent itlements
for all leases are accurate.

Ta. rget Dat e: Quarter 3 FY 2010
Res ponsible Offi cia l: Gregory 1. Gould. Associate Director. MRM

Reco mm endation 4: The RIK should update its "RoyallY In-Kind Operator Imbalance Phase
Our Sirategy & Procedures '0 dated October 7. 2009, with the additional process improvements.
such as the Ihreshold certification/orm, properly checklist. and royalty calculolion ~preads"eel.
This will ensure a comprehensive, closeollt strategy.

Response: Concur
The MMS is in the process of updating its oil imbalance procedures to address recent
improvements and prov isions that have been added si nce October 2009. We have developed
new checklists and certification fonn s for entitlements, and write·offs are now an integral part of
the imbalance reconciliation and cIose·out process. Infomlal procedures are already in place,
including email instructions to the imbalance analysts regarding components of the cIose·out
process.

T arget Date: Quarter 3 FY 2010
Res ponsible Official: Gregory J. Gould, Associate Director, MRM

Recommend ation 5: The MMS should establish a process 10 verify volllme al/ocation methods
llsed by companies on offshore leases.

Res ponse: Concur
Consistent with a recent, si mi lar Government Accountability Office recommendation related to
natural gas, MMS will conduct a risk·based analysis to help delennine the best method and tools
available for verifying volume allocations for facility measurement points with mixed royalty
rate leases. Once the analysis is complete, MMS will establish a process to verify volume
all ocation methods used by companies for offshore leases.

Ta rget Dat e: Quarter 2 FY 20 II
Res ponsible Officials:
Gregory 1. Gould, Associate Director, MRM
Chris Oynes, Associate Director, Offshore Energy and Minerals Management




                                                                                                        17
    Appendix 4: Status of
    Recommendations
    In response to our draft report, MMS concurred with all four of our
    recommendations and agreed to implement them. In Recommendation 2, MMS
    stated that they have enhanced their process to appropriately document royalty
    calculations and source data. MMS' response did not address procedures for
    verifying royalty calculations; therefore, we consider this recommendation
    unresolved.

     Recommendation(s) Status                     Action Required
             1, 3, 4          Resolved, Not       None.
                              Implemented
 
                2             Unresolved          Please provide additional
                                                  information in the final report
                                                  response regarding procedures to
                                                  verify royalty calculations.
 
 
 
 
                                     
                                     
                                     




                                                                                 18
                                     




                                     


         Report Fraud, Waste, and                                      
             Mismanagement
                Fraud,
                        waste, and mismanagement in
                government concern everyone: Office
                of Inspector General staff, Departmental
                employees, and the general public. We
                actively solicit allegations of any
                inefficient and wasteful practices, fraud,
                and mismanagement related to
                Departmental or Insular Area programs
               
                and operations. You can report
                allegations to us in several ways.
                                     
                                     
                                         
                                     
                                     
     By Mail:           U.S. Department of the Interior
                        Office of Inspector General
                        Mail Stop 4428 MIB
                        1849 C Street, NW  
                        Washington, D.C. 20240
      
     By Phone:          24-Hour Toll Free                                
                                                             800-424-5081
                        Washington Metro Area                703-487-5435
                                                                         
      
     By Fax:            703-487-5402 
      
     By Internet:       www.doioig.gov/hotline
  
